Report No. D-2007-087     April 25, 2007




Internal Controls over Army General Fund
      Transactions Processed by the
 Business Enterprise Information Services
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
BEIS                  Business Enterprise Information Services
DDRS                  Defense Departmental Reporting System
DFAS                  Defense Finance and Accounting Service
HQARS                 Headquarters Accounting and Reporting System
SFIS                  Standard Financial Information Structure
USSGL                 United States Standard General Ledger
               Department of Defense Office of Inspector General
Report No. D-2007-087                                                        April 25, 2007
  (Project No. D2006-D000FI-0085.000)


         Internal Controls over Army General Fund Transactions
        Processed by the Business Enterprise Information Services

                                 Executive Summary

Who Should Read This Report and Why? Department of the Army and Defense
Finance and Accounting Service (DFAS) personnel with Army General Fund financial
reporting responsibilities and personnel assigned to the Business Transformation Agency,
Business Enterprise Information Services (BEIS) Program Management Office should
read this report. It discusses the adequacy of internal controls over Army General Fund
transactions processed in BEIS.

Background. This is the third in a series of reports related to the implementation of
BEIS. It discusses internal controls over Army General Fund transactions processed by
BEIS, an information system that includes the DFAS Corporate Database, the DFAS
Corporate Warehouse, and the Defense Departmental Reporting System. BEIS processes
nonstandard transactions from feeder systems through a series of complex filter and
crosswalk tables, converts them to standard transactions, and posts them to the general
ledger accounts. In May 2007, DFAS plans for BEIS to produce financial statements and
budgetary reports for the Army General Fund. BEIS will replace the legacy system
currently used to compile financial statements and budgetary reports.

Results. The audit trail within BEIS allows general ledger entries to be traced to the
source transactions. In addition, source transactions that pass the filter tables can be
traced to the general ledger accounts. However, internal controls need to be improved in
order to determine whether transactions have been properly processed.

       •   Audit trails should exist between transactions that did not pass the Filter
           Criteria Table and their correcting transactions.

       •   The Filter Criteria Table should agree with Department of Treasury and
           DFAS guidance.

       •   Documentation explaining how and why BEIS processed and converted
           nonstandard transactions should exist.

These improvements would help accountants and auditors determine whether all
transactions were correctly processed by BEIS and thereby confirm the Army General
Fund general ledger balances. DFAS should maintain a centralized log that matches all
corrections of filtered transactions to their original transactions. The BEIS Program
Management Office and DFAS should reconcile the information in the Filter Criteria
Table with Department of Treasury and DFAS guidance and then correct the table. In
addition, DFAS and the Business Transformation Agency, of which the BEIS Program
Management Office is a part, should adequately document the process used by BEIS to
process and record transactions to the general ledger accounts.

Management Comments and Audit Response. Comments provided by the Director of
DFAS Indianapolis Operations and the Director of the Business Transformation Agency
are responsive to all of the recommendations. The Directors stated that DFAS
Indianapolis Operations will:

              •   implement policy to maintain documentation of any off-line filter
                  transaction corrections,

              •   reconcile combinations listed in the Filter Criteria Table with
                  applicable guidance and document the justification for any differences,
                  and

              •   document the BEIS transaction processing to include explanations for
                  exceptions to normal processing.

DFAS Indianapolis Operations personnel also provided documentation that showed the
process of suspending transactions. (See the Finding section for a discussion of
management comments and the Management Comments section for the complete text of
the comments.)




                                           ii
Table of Contents

Executive Summary                              i

Background                                     1

Objectives                                     3

Finding
     A. Audit Trails                           5
     B. Filtered Transactions                 10
     C. BEIS Process Documentation            14

Appendixes
     A. Scope and Methodology                 19
         Prior Coverage                       20
     B. Report Distribution                   21

Management Comments
     Defense Finance and Accounting Service   23
     Business Transformation Agency           28
Background
           This report addresses internal controls over Army General Fund transactions
           processed by the DoD Business Enterprise Information Services (BEIS). For
           FY 2006, the Army General Fund reported Total Assets of $226.6 billion, Total
           Liabilities of $70.3 billion, Net Cost of Operations of $164.6 billion, and Total
           Budgetary Resources of $229.4 billion. This is the third in a series of reports
           related to the audit of the process used to compile the Army General Fund
           financial reports and statements. The first report addressed an internal control
           weakness for accessing information in BEIS. The second report addressed an
           internal control weakness over the FY 2005 Army General Fund beginning
           account balances recorded in BEIS.

           Current Army General Fund Financial Reporting. Defense Finance and
           Accounting Service (DFAS) Indianapolis Operations, Accounting Services Army
           has compiled Army General Fund financial reports and statements from financial
           information processed by the Headquarters Accounting and Reporting System
           (HQARS) since 1991. HQARS is a legacy accounting system that does not meet
           Federal financial system requirements. At the end of each accounting period,
           Accounting Services Army transfers trial balance data into the general ledger.
           Accounting Services Army adjusts the general ledger accounts by making large
           unsupported adjustments to force the general ledger accounts to agree with the
           status of funds data reported for each appropriation. It then transfers the general
           ledger account information to the Defense Departmental Reporting System
           (DDRS) to prepare the actual financial statements.

           DoD Business Enterprise Information Services. BEIS will replace HQARS for
           Army General Fund financial reporting. BEIS is an information system that
           includes the DFAS Corporate Database, DFAS Corporate Warehouse, and DDRS.
           The goal of BEIS is to build on the existing infrastructure to provide timely,
           accurate, and reliable business information from across DoD to support auditable
           financial statements. All transactions processed in BEIS are auditable to source
           systems and data, use the Standard Financial Information Structure (SFIS) 1 for
           consistency, and comply with the U.S. Standard General Ledger (USSGL). 2 The
           BEIS Program Management Office reports to the Business Transformation
           Agency and is responsible for the development of BEIS.

           Business Enterprise Information Services Information Flow. Army General
           Fund source transactions enter BEIS through two processes: batch files and
           journal vouchers. Fiscal stations 3 submit Army General Fund accounting data to



1
    SFIS provides a standard line of accounting for transactions.
2
    The USSGL identifies the accounting codes used in the accounting systems of the Federal agencies. It
    includes account number, account title, and the normal balance (debit or credit) of the accounts.
3
    A fiscal station is an integrated finance and accounting office; a non-integrated finance office; a fully
    supported organization; a decentralized accounting office; or a State Department organization.



                                                         1
            BEIS through batch files generated from feeder systems. 4 BEIS assigns each
            batch file a unique batch file identification number (batch ID) and assigns each
            transaction within the batch a unique record sequence identification number
            (record sequence ID). Authorized users can also enter journal vouchers directly
            into BEIS, where they are certified and recorded into the general ledger. BEIS
            assigns each journal voucher a unique combination of batch ID and record
            sequence ID. The combination of batch ID and record sequence ID provides the
            ability to trace individual transactions through all phases of processing in BEIS.

            When BEIS receives a batch file, its transactions are processed through the Filter
            Criteria Table and the Filter Exclusion Table. These tables exclude any
            transactions that Accounting Services Army decides should not be processed
            through BEIS. For example, these tables filter other Military Services’
            transactions that do not affect the Army General Fund general ledger. The Filter
            Criteria Table defines all valid combinations of data in the department code, 5
            basic symbol, 6 and limit 7 fields. For purposes of this report, valid combinations
            of data are those which Accounting Services Army personnel have deemed to be
            appropriate for processing through BEIS. Invalid combinations of data are those
            which Accounting Services Army personnel have deemed to be inappropriate for
            processing through BEIS. Transactions that do not contain a valid combination of
            data are sent to an archive file. 8 The Filter Exclusion Table defines all invalid
            combinations of data in the department code, transaction type, 9 and legacy code
            fields. Transactions that contain any of these invalid combinations of data are
            archived. Transactions that pass the filter tables progress to the crosswalk
            process.

            The majority of transactions submitted to BEIS through batch files are in a
            nonstandard 10 format. Each of these nonstandard transactions contains a line of
            accounting, plus other elements such as document reference number and
            transaction type. BEIS uses the crosswalk process to create SFIS accounting
            transactions from the nonstandard lines of accounting. If a nonstandard
            transaction does not match any of the valid combinations contained in the

4
    Feeder systems include, but are not limited to, the Standard Finance System (STANFINS), the Standard
    Operation Maintenance Army Research and Development System (SOMARDS), and the Corps of
    Engineers Financial Management System (CEFMS).
5
    The department code represents the government department or agency responsible for a fund or account
    and is the highest governmental organizational level at which appropriation, fund, deposit, clearing and
    receipt accounts are summarized (unless the funds were transferred to it by another government
    department or agency).
6
    The basic symbol (US Treasury Account Number) identifies the specific appropriation or fund
    established by Treasury to account for appropriations, receipts, and other fund accounts.
7
    The limit is a suffix to the basic symbol that is used to identify a subdivision of funds that restricts the
    amount or use of funds for a certain purpose, or to identify sub-elements within the account for
    management purposes.
8
    An archive file is a file that has been saved in a different location than the original.
9
    Transaction types are codes that allow an automated transaction driven system to post financial
    transactions to the appropriate general ledger account code.
10
      Transactions from legacy systems that use accounting and transaction codes other than those transaction
     codes specified by SFIS are considered “nonstandard.”



                                                          2
    crosswalk tables, it will be suspended. BEIS stores suspended transactions in the
    suspense tables, where fiscal stations can access them to make corrections and
    resubmit them through the recycle process. If a nonstandard line of accounting
    matches the valid combinations contained in the crosswalk tables, BEIS creates
    an SFIS transaction. BEIS stores the original nonstandard transactions and the
    related SFIS transactions in different tables.

    Once a batch file is processed, BEIS sends an e-mail to the submitting fiscal
    station. The e-mail identifies the number of transactions received, filtered,
    suspended, and processed. The submitting fiscal station can use this information
    to verify the accuracy of the data transferred. The following figure shows the
    flow of data through BEIS.




Objectives
    Our overall audit objective was to determine the adequacy of internal controls
    over the Army General Fund accounting transactions processed by BEIS systems.
    We determined whether audit trails existed, accounting transactions were
    supported, and transactions were recorded to proper general ledger accounts. We
    reviewed the managers’ internal control program as it related to the audit
    objectives. See Appendix A for a discussion of the scope and methodology and
    for prior coverage related to the objective.




                                        3
Review of Internal Controls
            DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
            and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
            August 28, 1996, require DoD organizations to implement a comprehensive
            system of management controls that provides reasonable assurance that programs
            are operating as intended and to evaluate the adequacy of the controls. 11

            Scope of the Review of Management Control Program. We reviewed the
            adequacy of the internal controls over Army General Fund transactions processed
            by BEIS. Specifically, we reviewed whether adequate audit trails existed and
            whether procedures and processes were adequately documented. We also
            reviewed the adequacy of management’s self-evaluation of those controls.

            Adequacy of Management Controls. Using guidance defined by DoD
            Instruction 5010.40, BEIS had internal control weaknesses. The internal controls
            were not adequate to ensure that transactions were accurately processed into BEIS
            and that adequate audit trails were maintained. Recommendations A, B, and C,
            when implemented, will correct the identified weaknesses. We will provide a
            copy of the final report to the senior officials responsible for management
            controls.

            Adequacy of Management’s Self-Evaluation. Management did not identify or
            report the management control weaknesses identified by the audit. The Business
            Transformation Agency and DFAS did not identify BEIS as an assessable unit.
            The Business Transformation Agency plans to identify BEIS as an assessable unit
            once BEIS is fully implemented. Both the Department of the Army and DFAS
            have identified financial management systems as a material weakness,
            specifically the:

                    •   lack of audit trails,

                    •   lack of USSGL transaction accounting, and

                    •   use of large unsupported adjustments made to the Army General Fund
                        accounting records.

            In addition, the Department of the Army reported the abnormal balances in the
            Army General Fund general ledger data submitted to DFAS as a material
            management control weakness in its FY 2006 Annual Statement of Assurance.




11
      Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
     Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
     Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD
     Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was reissued on January
     4, 2006.



                                                      4
            A. Audit Trails
           The audit trail within BEIS enables accountants and auditors to trace
           general ledger entries back to source transactions. In addition, the
           12.75 million source transactions that occurred in January 2006 and
           passed the filter tables can be traced to the Army General Fund general
           ledger. However, 1,061 transactions from the same period that did not
           pass the Filter Criteria Table cannot be traced to the general ledger. The
           audit trail for these transactions does not exist because transactions with
           data entry errors that do not pass the Filter Criteria Table are not linked to
           their correcting transactions. As a result, it is impossible to confirm that
           errors have been corrected and that the general ledger accounts are
           accurate.


Requirements for Audit Trails
    Federal and DoD system requirements specify that audit trails must exist to
    provide a means to trace transactions from the general ledger to the source and
    from the source to the general ledger. Management is responsible for maintaining
    audit trails.

    Federal System Requirements. The Office of Federal Financial Management
    publication, “Core Financial System Requirements,” January 2006, states that
    audit trails should exist for transactions that are recorded as they move from the
    source through every step in the documentation process. It states that “adequate
    audit trails are critical to providing support for transactions and balances
    maintained by the Core financial system.”

    DoD System Requirements. DoD Regulation 7000.14-R, “Financial
    Management Regulation,” volume 1, chapter 3, prescribes the procedures for
    determining whether DoD accounting systems are designed, documented, and
    operated in accordance with applicable regulations. Specifically, “Key
    Accounting Requirement Number 8” states that financial transactions must be
    adequately supported and traceable to individual source transactions. Audit trails
    allow accountants and auditors to trace a transaction from its source to the
    resulting transaction or report, and from the resulting transaction or report back to
    the source. In addition, good audit trails allow for the detection and tracing of
    rejected or suspended transactions, such as unmatched disbursements, for timely,
    systematic correction.


Tracing Transactions from the General Ledger
    BEIS provides an audit trail to trace all general ledger entries to the source
    transactions. We confirmed this part of the audit trail by identifying 12.83 million
    standard transactions in the Order Line Detail Table that occurred in
    January 2006. Of these, 12.75 million transactions for $159 billion posted to the
    general ledger. This dollar amount matched the January 2006 activity in the

                                          5
     Army General Fund general ledger accounts. The Order Line Detail Table
     contains data for all transactions that post to the general ledger. Each transaction
     in the Order Line Detail Table includes a pro forma code that indicates how the
     transaction affects the general ledger by identifying the general ledger accounts
     that the transaction debits or credits. We identified the pro forma codes assigned
     to each transaction that occurred in January 2006. We then totaled the dollar
     amounts of all transactions assigned to each pro forma code. We compared the
     total dollar amounts of all transactions that should post to each account to the
     actual January 2006 activity in the general ledger accounts. Because the dollar
     amount totals equaled the actual January 2006 activity in the general ledger, we
     are confident that we identified all standard transactions that posted to the general
     ledger accounts.

     The Order Line Detail Table includes a unique combination of batch ID and
     record sequence ID for each transaction. We can use the combination of batch ID
     and record sequence ID in the Order Line Detail Table to identify the
     corresponding source transactions in the nonstandard tables. As a result, we can
     identify all source transactions that post to the general ledger accounts.


Filter Table Operation
     BEIS uses two filter tables in processing transactions. The Filter Criteria Table
     confirms that each transaction contains one of the valid combinations of
     department code, basic symbol, and limit that are listed on the table. Conversely,
     the Filter Exclusion Table confirms that each transaction does not contain one of
     the invalid combinations of department code, transaction type, or legacy code
     listed on it. Because these two tables operate differently, the processes for
     correcting errors in the transactions that do not pass these tables are also different.

     The Filter Criteria Table allows processing of transactions that contain one of the
     valid combinations of department, basic symbol, and limit that are listed in the
     table. Transactions that contain data entry errors in these fields will not pass the
     Filter Criteria Table and will be archived instead. The erroneous transactions
     remain in an archive file, and corrected transactions are submitted to BEIS in their
     place. Because BEIS does not contain a mechanism for matching the corrected
     transaction to the archived transaction, there is no audit trail for transactions that
     fail the Filter Criteria Table.

     The Filter Exclusion Table excludes transactions that contain one of the invalid
     combinations of data in the department, transaction type, and legacy code fields
     listed in the table and will not process them further. Transactions that contain
     data entry errors in these fields will pass the Filter Exclusion Table and process
     through to the crosswalk tables. The crosswalk tables determine whether each
     transaction contains a valid line of accounting, specifically in the department,
     transaction type, and legacy code fields. Transactions that contain errors will fail
     the crosswalk tables and be suspended. When suspended transactions are
     corrected, BEIS maintains a record of the correction, which becomes the audit
     trail. Finding C contains additional discussion of the Filter Exclusion Table.



                                            6
Transactions That Passed the Filter Tables
            BEIS provides an audit trail so that accountants and auditors can trace source
            transactions that pass the filter tables to the general ledger. Of the 12.83 million
            transactions that passed the filter tables in January 2006, we selected 289,272
            transactions, totaling $1.04 billion, to trace forward to the January 2006 general
            ledger. We used the unique combination of batch ID and record sequence ID to
            trace these transactions forward to the Order Line Detail Table. We then used the
            pro forma codes assigned to these transactions to identify the general ledger
            accounts that were affected by the each of the 289,272 transactions. As a result,
            we concluded that BEIS provides an audit trail to trace transactions that pass the
            filter tables forward to the general ledger.

            BEIS also provides an audit trail for suspended transactions by maintaining a
            history of every change to the source transaction. Suspended transactions are
            transactions that pass the filter tables but do not match the valid data
            combinations contained in the crosswalk tables and, therefore, do not generate an
            SFIS transaction. Once BEIS users correct the errors that cause transactions to
            suspend, they can resubmit the corrected transactions. BEIS then assigns a new
            unique batch ID and record sequence ID combination to each of the resubmitted
            transactions. BEIS maintains a history of all changes made to a suspended
            transaction, which provides a link between the original transaction and any
            corrections. This history provides a complete audit trail for suspended
            transactions through all phases of processing, including error correction.


Transactions That Did Not Pass the Filter Tables
            BEIS did not provide sufficient information to allow us to match transactions that
            did not pass the Filter Criteria Table to any correcting entries. Transactions
            entering BEIS through batch files first must pass the Filter Criteria Table, then the
            Filter Exclusion Table, prior to the crosswalk process. The Filter Criteria Table
            excludes the transactions that Accounting Services Army has decided BEIS
            should not process (for example, other Military Services’ transactions that do not
            affect the Army General Fund). The Filter Criteria Table also excludes
            transactions that contain errors within the department code, basic symbol, or limit
            fields. Transactions that do not contain a valid combination of data, as defined by
            the Filter Criteria Table, are sent to an archive file.

            Data Input Errors. We reviewed 227,263 Army General Fund transactions,
            totaling $209.8 billion, with effective dates from January 1 to May 12, 2006 that
            did not pass the Filter Criteria Table. 12 Of these, 1,061 transactions, valued at
            $196.3 billion, contained data entry errors. 13 Data entry errors include
            transactions that do not contain the mandatory number of alpha/numeric
            characters in a field or contain an invalid alpha/numeric character (“O” instead of
12
     See Finding B for a discussion of the 227,263 transactions.
13
     150 of these transactions, valued at $196.2 billion, were submitted through the Program Budget
     Accounting System.



                                                       7
    “0”) within the field. Because the fiscal stations cannot change these fields, they
    must either submit corrected transactions in new batch files or request that
    Accounting Services Army submit corrected transactions for them. BEIS assigns
    these corrected transactions unique batch IDs and record sequence IDs that are
    not linked to the original filtered transactions. This means there is no audit trail
    between filtered transactions and the correcting entries, and we cannot confirm
    that the 1,061 original transactions were corrected and processed. As a result,
    Accounting Services Army cannot prepare reliable financial reports using
    financial data from BEIS.

    Reorienting the Filter Criteria Table. We discussed potential solutions for
    establishing an audit trail for transactions that contain data entry errors in the
    department, basic symbol, and limit fields with the BEIS Program Management
    Office. The BEIS Program Management Office believes that reorienting the
    Filter Criteria Table to operate similarly to the Filter Exclusion Table will provide
    an audit trail for corrections to transactions that have data entry errors in the
    department, basic symbol, and limit fields. Reorienting the Filter Criteria Table
    to exclude transactions that match invalid combinations of data will ensure that
    transactions with data entry errors are processed through to the crosswalk tables.
    Because these transactions will fail the crosswalk tables, they will be suspended.
    When the transactions are corrected, BEIS will maintain a record of the
    correction, which will result in a complete audit trail for all Army General Fund
    transactions processed by BEIS.

    Reorienting the Filter Criteria Table will require Accounting Services Army to
    identify all combinations of department, basic symbol, and limit values that
    should not process through to the Order Line Detail Table. In addition, the table
    must be maintained as new appropriations are established by the Congress.

    We also discussed reorienting the Filter Criteria Table with Accounting Services
    Army personnel. They agreed that this solution would result in a complete audit
    trail for BEIS. However, they expressed concern that the effort to update and
    maintain the table would outweigh the benefits. Accounting Services Army
    personnel believe that maintaining a centralized log of archived transactions and
    the related correcting transactions will provide the ability to confirm the
    correction of the data entry errors.


Conclusion
    Good audit trails allow for the tracing of transactions through all phases of
    processing. This includes providing a mechanism to determine whether incorrect
    transactions were corrected. BEIS does not provide an audit trail for filtered
    transactions that require correction. The centralized log of archived transactions
    suggested by DFAS will not result in a complete audit trail within BEIS.
    However, it will provide an adequate compensating control to confirm that
    incorrect transactions were corrected. Accounting Services Army will need to
    maintain this log under the same standards as other financial accounting records.
    (See the “Requirements for Audit Trails” section on page 5.)



                                          8
Recommendation and Management Comments
    A. We recommend that the Director, Defense Finance and Accounting
    Service Indianapolis Operations maintain a centralized log that identifies
    transactions that archive and require correcting transactions. This log is to
    include the batch file and record sequence identification number of both the
    archived and correcting transaction.

    Management Comments. The Director of DFAS Indianapolis Operations and
    the Director of the Business Transformation Agency concurred and stated that
    manual processes will be documented when an off-line file is created to correct
    filtered transactions. They anticipate the volume of off-line files to decrease once
    BEIS is in production. The Director of DFAS Departmental Accounting will
    implement an internal policy no later than May 31, 2007, that requires
    documentation of any off-line filtered transaction corrections.




                                         9
                    B. Filtered Transactions
                    The Filter Criteria Table contained basic symbol and limit combinations
                    that were not listed in the Treasury and DFAS guidance and omitted
                    combinations that were listed in the guidance. DFAS Army Accounting
                    did not reconcile the Filter Criteria Table combinations with the Treasury
                    and DFAS guidance when the table was created. Because the Filter
                    Criteria Table was not accurate, transactions were incorrectly filtered. A
                    total of 223,497 source transactions for $624 million did not correctly pass
                    the Filter Criteria Table. As a result, we could not confirm that BEIS
                    processed all valid transactions.


Filter Criteria Table
            The Filter Criteria Table should list all combinations of department, basic symbol,
            and limit values that should be processed through BEIS. There were 3,848 Army
            General Fund combinations in the Filter Criteria Table at the time of our review.
            Transactions containing combinations of data that match those in the Filter
            Criteria Table proceed to the Filter Exclusion Table. Transactions containing
            combinations of values that do not match those in the Filter Criteria Table will
            archive and not process through BEIS. Three documents in the Treasury and
            DFAS guidance identify valid basic symbol and limit combinations for the Army
            General Fund.

                    •   The “Federal Account Symbols and Titles, Supplement to Volume I
                        Treasury Financial Manual,” August 2006 (Treasury FAST Book)
                        contains receipt, appropriation, and other fund account symbols (basic
                        symbols) and titles assigned by the Treasury, as well as agency
                        (department) codes.

                    •   The DFAS Indianapolis Center Manual 37-100-06, “Financial
                        Management, The Army Management Structure Fiscal Year 2006”
                        (DFAS 37-100-06) establishes the standard codes and terms for
                        classifying financial resource transactions and includes Army values
                        for the basic symbol and limit fields.

                    •   The DFAS Manual 7097.01, “Financial Management, Departmental
                        Reporting Manual for Office of the Secretary of Defense (Treasury
                        Index 97) 14 Appropriations” contains limits for each DoD Component
                        that receives allocations of the Defense Agencies’ appropriations and
                        funds.




14
     Treasury Index 97 refers to the DoD. To avoid duplication, DFAS 37-100-06 Manual no longer
     maintains the DoD appropriation limits and refers to Chapter 1d-limit of DFAS Manual 7097.01.



                                                     10
Filter Criteria Table Combinations
     Of the 3,848 combinations contained in the Filter Criteria Table,
     1,268 combinations were listed in the Treasury and DFAS guidance and
     2,580 combinations were not. Because the Filter Criteria Table was not accurate,
     transactions were incorrectly filtered.

     Of the 2,580 combinations not listed in the guidance, 10 contained unidentified
     basic symbols and 2,570 contained unidentified limits. We performed tests of
     these combinations in BEIS to determine their activity for January 2006. There
     was no transaction activity for 2,579 of the combinations. One combination had
     64 transactions that were processed with an absolute value of $89,734. We were
     unable to determine why Accounting Services Army included combinations on
     the Filter Criteria Table that were not specified in Treasury or DFAS guidance
     when only one combination had transaction activity.

     From January 1 through May 12, 2006, a total of 227,263 Army General Fund
     transactions, valued at $209.8 billion, did not pass the Filter Criteria Table. The
     following table categorizes these transactions.



               Army Transactions that Did Not Pass the Filter Criteria Table

                                                                          Dollar Value
                  Category             Number of Transactions             (In Billions)

      Not Listed in Guidance -
      Data Entry Errors                           1,061                      $196.3

      Not Listed in Guidance -
      Invalid Combinations                        2,705                        12.9
      Listed in Guidance -
      Not Included in Table                     223,497                         0.6

       Total                                    227,263                      $209.8


     Invalid Symbol and Limit Combinations. There were 3,766 transactions that
     contained department, basic symbol, and limit combinations that were not listed
     in the Treasury or DFAS guidance. The details of the 1,061 transactions that
     were archived because of data entry errors are discussed in Finding A. An
     example of a data entry error is a transaction with a limit of “0.” This appears to
     be an error in entering the correct limit of “0000.” These transactions filtered
     because the Filter Criteria Table does not recognize “0” as a valid limit. The
     remaining 2,705 transactions contained combinations that were not listed in the
     Treasury or DFAS guidance, but did not appear to be data entry errors. For
     example,



                                          11
     307 transactions contained the basic symbol “9999,” which was not listed in the
     Treasury or DFAS guidance. Because these combinations were not listed in the
     guidance, we believe their exclusion from further processing was proper.

     Valid Symbol and Limit Combinations. Of the 227,263 transactions we
     reviewed, 223,497 transactions valued at $624 million, contained department,
     basic symbol, and limit combinations that were listed in the Treasury and DFAS
     guidance. These transactions contained 45 different department/basic
     symbol/limit combinations that were not in the Filter Criteria Table and were
     therefore excluded from further processing. For example, the following two
     combinations were identified in the Treasury and DFAS guidance but not
     included on the Filter Criteria Table:

            •   21.1210.0000

                –   21 - Department of the Army
                –   1210 - “Contributions to ‘Conscience Fund’” account
                –   0000 - No limit listed; per DFAS guidance defaults to “0000.”

            •   21.1435.0000

                –   21 - Department of the Army
                –   1435 - “General Fund Proprietary Interest - Not Otherwise
                    Classified” account
                –   0000 - No limit listed.

Validation of the Filter Criteria Table
     The basic symbol and limit combinations in the Filter Criteria Table had not been
     reconciled with Treasury and DFAS guidance. Of the 3,848 combinations in the
     Filter Criteria Table, 3,831 were added between October 1 and December 31,
     2004. Since that time, only 17 combinations have been added, and no deletions
     have been recorded in the edit log. Accounting Services Army has the authority
     to add and delete basic symbol and limit codes in the Filter Criteria Table.
     However, we were not provided any evidence of why some valid combinations
     were in the Filter Criteria Table and others were not. Nor were we provided
     evidence of why invalid combinations were included in the Filter Criteria Table.

     Because the Filter Criteria Table excluded transactions with combinations listed
     in the Treasury and DFAS guidance, and it included combinations that were not
     listed, we could not confirm that BEIS included all valid transactions in the
     general ledger accounts. In order to ensure that all valid transactions are properly
     processed by BEIS, the Filter Criteria Table should be reconciled with Treasury
     and DFAS guidance. Invalid combinations listed in the Filter Criteria Table
     should be deleted, and valid codes that are not in the table should be added.
     Written justifications should be prepared explaining any exceptions. The
     reconciliation and written justifications should be retained as part of the system
     documentation.




                                          12
Recommendation and Management Comments
    B. We recommend that the Director, Defense Finance and Accounting
    Service Indianapolis Operations and the Business Enterprise Information
    Services Program Manager:

           1. Reconcile the combinations listed in the Filter Criteria Table with
    the combinations listed in the Treasury Federal Account Symbols and Titles
    Book, DFAS Manual 37-100-06, and DFAS Manual 7097.01.

            2. Document the reason and justification for any differences between
    the Filter Criteria Table and the Treasury Federal Account Symbols and
    Titles Book, DFAS Manual 37-100-06, and DFAS Manual 7097.01 guidance
    before the system is used to prepare official Army General Fund financial
    statements or budget reports.

    Management Comments. The Director of DFAS Indianapolis Operations and
    the Director of the Business Transformation Agency concurred with
    Recommendations B.1 and B.2. The Directors stated that this action will be
    completed by the Fiscal Code Group no later than May 31, 2007.

           3. Maintain the reconciliations and justification documentation as
    part of the system’s official documentation.

    Management Comments. The Director of DFAS Indianapolis Operations and
    the Director of the Business Transformation Agency concurred and stated that the
    reconciliation and justification will be maintained by the Fiscal Code Group and
    completed by April 30, 2007. They also stated that the March 2007 release
    enhanced system functionality related to the Filter Criteria Table to include an
    audit log for deleted and changed records.




                                       13
           C. BEIS Process Documentation
           BEIS processed 12.83 million Army General Fund transactions through to
           the Order Line Detail Table for January 2006; however, we were unable to
           determine if BEIS processed them correctly to the general ledger accounts.
           For example, there were 586,000 transactions for $86.9 billion that did not
           post to the general ledger accounts, but the system documentation did not
           explain why this occurred. DFAS Army Accounting has not adequately
           documented the process for converting nonstandard accounting
           transactions into standard transactions and for posting them to the Army
           General Fund general ledger accounts. As a result, we cannot confirm the
           accuracy of the general ledger and will not be able to verify the related
           budget reports and financial statements prepared from the general ledger
           accounts.


Transaction Processing
    Although transactions can be traced from the general ledger accounts to the
    source transactions as discussed in Finding A, we were unable to determine if
    BEIS processed all source transactions correctly. Transactions pass the filter and
    crosswalk tables and are assigned pro forma codes that post to the general ledger
    accounts. However, there are transactions that do not process normally. These
    include:

           •   filter exclusion transactions,

           •   suspended transactions,

           •   BEIS-created transactions,

           •   reversed-sign transactions, and

           •   non-posting transactions.

    Filter Exclusion Transactions. Accounting Services Army personnel are
    responsible for updating the Filter Exclusion Table, which lists all invalid
    combinations of data in the department code/legacy code and department
    code/transaction type fields. Transactions with combinations that do not match
    those in the Filter Exclusion Table proceed to the crosswalk tables. Transactions
    with combinations that match those in the Filter Exclusion Table will archive.
    Accounting Services Army personnel identified 395 invalid combinations of data
    to be listed in the Filter Exclusion Table. However, they had not documented the
    reasons for including and excluding transactions with specific department
    code/legacy code or department code/transaction type combinations. Unlike the
    Filter Criteria Table, there was no guidance that specified the combinations of
    data that should be included in the Filter Exclusion Table. As a result, we were
    unable to determine if the transactions were properly excluded from posting to the
    general ledger accounts.



                                         14
Suspended Transactions. Transactions are suspended in BEIS when they
contain data that is not in the crosswalk tables. This occurs when the crosswalk
tables do not contain all valid data combinations or when the transactions
submitted contain invalid data. Suspense tables store transactions that contain
data that are not in the crosswalk tables. Fiscal stations can access the suspense
tables to process corrections. The Army Suspense Manual documents the process
fiscal stations use to correct suspended transactions; however, there is no
documentation explaining why BEIS processed or suspended certain transactions.
Accounting Services Army has not documented the selection criteria for valid
fields represented in the crosswalk tables.

BEIS-Created Transactions. Transactions that populate the nonstandard
transaction tables can be submitted by fiscal stations through a daily batch file
submission process. However, for certain transaction types that are submitted,
BEIS is programmed to generate an additional, related, nonstandard transaction.
For example, when a fiscal station submits a transaction with a direct expense
transaction type, BEIS creates a related nonstandard transaction with a
reimbursable expense transaction type. This causes a discrepancy between the
total number of transactions in the nonstandard table and the total number of
transactions submitted by the fiscal station. Accounting Services Army has not
documented the reasons why BEIS creates new related nonstandard transactions.
Therefore, we were unable to confirm that BEIS-created transactions were valid.

Reversed-Sign Transactions. The transaction dollar amount field in a standard
transaction is normally identical to the transaction dollar amount field in the
corresponding nonstandard transaction. For example, if a nonstandard transaction
is for $100, the corresponding standard transaction is also for $100. However, for
51 types of nonstandard transactions, BEIS reverses the sign of the transaction
dollar amount (changes a positive amount to a negative amount, or a negative to a
positive) when it creates the standard transaction. For example, when BEIS
processes an accounts receivable collection transaction from the Standard Finance
System, it changes a positive transaction dollar amount to a negative amount.
Accounting Services Army has not documented why BEIS is programmed to
reverse the signs for these transactions. These 51 types of transactions were
processed with the normal transactions to the Order Line Detail Table. However,
we were unable to confirm that reversing the signs on these transactions was
proper.

Non-Posting Transactions. Each transaction that processes through BEIS is
assigned a pro forma code. Pro forma codes indicate how each transaction affects
the general ledger by identifying the accounts that are to be debited or credited.
However, some pro forma codes indicate that the transaction neither debits nor
credits the general ledger accounts. Transactions assigned to these non-posting
pro forma codes do not impact the general ledger.

We reviewed the pro forma codes assigned to the 12.83 million Army General
Fund accounting transactions that occurred in January 2006 and processed
through to the Order Line Detail Table. BEIS assigned non-posting pro forma
codes to approximately 586,000 of these transactions, valued at $86.9 billion. For
example, pro forma code 2439 is a “Commit Funds” transaction type that does not
post to the general ledger. There are five other pro forma codes with the same


                                    15
    transaction type that do post to the general ledger accounts: 2434, 2437, 2440,
    3628, and 3804. However, Accounting Services Army has not documented the
    reasons certain transactions do not post to the general ledger accounts.


Transaction and Process Documentation
    Federal and DoD policies require that accounting processes be adequately
    documented. However, Accounting Services Army has not documented the
    process for BEIS to convert nonstandard accounting data into standard accounting
    data and post this data to the general ledger accounts. Specifically, Accounting
    Services Army did not adequately document the rationale for the values used in
    the Filter Exclusion and suspense tables and why BEIS created certain
    transactions, reversed some transaction signs, and did not post certain
    transactions.

    Federal System Requirements. The Office of Federal Financial Management,
    “Core Financial System Requirements,” January 2006, states that software
    documentation “must be written at a sufficient level of detail that users who are
    familiar with the Core system and its functions, but are new to the product, can
    understand and use the documentation without assistance from the vendor.”
    Specifically, the application documentation should include entity relationship
    diagrams, cross references between internal files, and system flowcharts.

    DoD System Requirements. DoD Regulation 7000.14-R, “Financial
    Management Regulation,” volume 1, chapter 3, prescribes the procedures for
    determining whether DoD accounting systems are designed, documented, and
    operated in accordance with applicable regulations. Specifically, “Key
    Accounting Requirement Number 10” states that:

           . . . the system documentation shall be in enough detail to be
           understood by computer personnel and system accountants assigned to
           develop applicable software. It shall demonstrate readily to users,
           auditors, and evaluators the system’s conceptual processes and
           procedures. The documentation should be in good order to facilitate
           maintenance operations and transaction testing. Good documentation
           would permit transaction testing which is designed to disclose whether
           valid transactions are processed properly, and whether the system
           rejects invalid transactions.

    Accounting Services Army personnel stated that they have not documented the
    process because they have been focused on BEIS implementation and testing, but
    that they plan to complete this documentation when the system is fully
    implemented. Accounting Services Army plans to use BEIS to prepare Army
    financial management reports in May 2007. We do not understand the value of
    testing the system when its processes have not been adequately documented and
    necessary corrections made.




                                            16
    We believe that the following processes should be written and maintained as part
    of BEIS system documentation:

       •   the maintenance of the Filter Exclusion Table, including rationale used to
           determine invalid combinations of department code and transaction type
           or legacy code;

       •   the suspension of transactions, including what transactions the crosswalk
           tables should suspend and why;

       •   the creation of additional transactions based on transaction type, including
           the reason that the related transaction is necessary;

       •   the sign reversal by BEIS for certain transaction types received from
           certain source systems and corresponding rationales; and

       •   the assignment of non-posting pro forma codes to certain transactions.


Recommendations, Management Comments, and Audit
  Response
    C. We recommend that the Director, Defense Finance and Accounting
    Service Indianapolis Operations and the Business Enterprise Information
    Services Program Manager document the method by which transactions are
    processed through Business Enterprise Information Services, including, but
    not limited to, explanations for the following exceptions to normal
    processing:

             1. Document the reasons for including transactions with specific
    department code/legacy code or department code/transaction type
    combinations on the Filter Exclusion Table.

    Management Comments. The Director of DFAS Indianapolis Operations and
    the Director of the Business Transformation Agency concurred and stated that
    DFAS Indianapolis Operations will validate and document the reasons for the
    entries in the Filter Exclusion Table by May 31, 2007.

              2. Document the process of suspending transactions, to include
    what the various crosswalk tables suspend and why.

    Management Comments. The Director of DFAS Indianapolis Operations and
    the Director of the Business Transformation Agency concurred and stated that the
    documentation is currently available in training materials maintained by the BEIS
    Program Management Office as well as local training supplements and procedural
    documents maintained by the operational activities that use the BEIS. Both
    Directors stated that this action is completed.

    Audit Response. The comments provided by the Director of DFAS Indianapolis
    Operations and the Director of the Business Transformation Agency are


                                        17
responsive. DFAS Indianapolis Operations personnel provided additional
documentation after the draft report was issued that meets the intent of the
recommendation.

           3. Identify those transaction types that create an additional
transaction and document the reason that the related transaction is
necessary.

           4. Document why Business Enterprise Information Services
reverses the sign for certain transaction types received from certain source
systems.

Management Comments. The Director of DFAS Indianapolis Operations and
the Director of the Business Transformation Agency concurred with
Recommendations C.3. and C.4. The Directors agreed to review system change
request documentation and provide additional rationale as needed by
June 30, 2007.

           5. Document the reasons for assigning transactions pro forma
codes that do not post to the general ledger.

Management Comments. The Director of DFAS Indianapolis Operations and
the Director of the Business Transformation Agency concurred and stated that the
non-posting transaction types will be documented and validated by May 31, 2007.




                                     18
Appendix A. Scope and Methodology
   We evaluated BEIS procedures for processing and posting transactions to the
   Army General Fund general ledger. We assessed BEIS system documentation
   and audit trails to determine if they complied with the Office of Federal Financial
   Management, “Core Financial System Requirements,” January 2006, and DoD
   Regulation 7000.14-R, “Financial Management Regulation,” volume 1, chapter 3.
   We reviewed system documentation made available to us by Accounting Services
   Army and the Program Management Office. In addition, we reviewed the
   12.83 million transactions that processed through BEIS in January 2006. These
   transactions were valued at $159 billion. We also reviewed 227,263 Army
   General Fund transactions for $209.8 billion with effective dates between
   January 1 and May 12, 2006, that did not pass the Filter Criteria Table. Our
   review of the audit trail was limited to tracing transactions through BEIS. We
   performed limited procedures at field accounting organizations in an attempt to
   trace transactions through the feeder systems to their origin. However, we did not
   obtain sufficient evidence to develop an opinion on the adequacy of the audit trail
   through the feeder systems.

   Additional transaction files can enter BEIS through Army Property Systems.
   These transactions do not follow the processes discussed in this report and they
   were not reviewed during the audit. Therefore, we did not extend an opinion on
   these transactions.

   We interviewed DFAS Army Accounting personnel at field accounting offices.
   Specifically, we spoke with personnel located in Indianapolis, St. Louis,
   San Antonio, San Diego, and Orlando. We contacted the DFAS personnel in
   these offices to gain an understanding of the procedures in place to submit data to
   BEIS, correct data submission errors, and reconcile the source system data with
   the data submitted to BEIS. We interviewed personnel in the Program
   Management Office to gain an understanding of how transactions process in
   BEIS.

   We performed this audit from December 2005 through October 2006 in
   accordance with generally accepted government auditing standards.

   Use of Computer-Processed Data. We used transaction data in BEIS to perform
   this audit. We reviewed BEIS procedures for processing and posting these data to
   the general ledger. The lack of system documentation explained in Finding C
   prevented us from determining if BEIS processed the data correctly. We did not
   audit the reliability of the data submitted to BEIS by the fiscal stations because it
   was not a critical factor in determining if BEIS properly processed the
   transactions.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the Financial Management high-risk area.




                                        19
Prior Coverage
      During the last 5 years, the Government Accountability Office (GAO) and the
      Department of Defense Inspector General (DoD OIG) have issued four reports
      discussing BEIS. Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov. Unrestricted DoD OIG reports can be accessed at
      http://www.dodig.mil/audit/reports

GAO
      GAO-03-465, “DoD Business System Modernization Continued Investment in
      Key Accounting Systems Needs to be Justified,” March 28, 2003

DoD OIG
      DoD OIG Report No. D-2006-068, “Implementation of the Business Enterprise
      Information Services for the Army General Fund,” March 31, 2006

      DoD OIG Report No. D-2006-033, “Defense Finance and Accounting Service
      Corporate Database User Access Controls,” December 7, 2005

      DoD OIG Report No. D-2002-014, “Development of Defense Finance and
      Accounting Service Corporate Database and Other Financial Management
      Systems,” November 7, 2001




                                         20
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Business Transformation Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          21
Congressional Committees and Subcommittees,
 Chairman and Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
  and Government Reform




                                        22
Defense Finance and Accounting Service
Comments




                      23
24
25
26
27
Business Transformation Agency Comments




                    28
29
30
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Jack L. Armstrong
Carmelo G. Ventimiglia
Mark A. Ives
John T. Ferguson
Adriel E. Braaksma
Donna J. Paterson
Marcus A. Gullett
E. Ellen Kleiman-Redden
Ann L. Thompson
